No. 19-1255
In the

Supreme Court of the United States
__________________

RENEE BAKER, WARDEN, et al.,
Petitioners,
v.
JEFF N. ROSE,
__________________

Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

__________________

REPLY BRIEF FOR PETITIONERS
__________________
AARON D. FORD
Attorney General of Nevada
HEIDI PARRY STERN*
Solicitor General
JEFFREY M. CONNER
Deputy Solicitor General
CHARLES FINLAYSON
Senior Deputy Attorney General
100 North Carson Street
Carson City, NV 89701
(775) 684-1100
HStern@ag.nv.gov
* Counsel of Record
Counsel for Petitioners
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . ii
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
I. THE NINTH CIRCUIT’S DECISION CONFLICTS
WITH JACKSON . . . . . . . . . . . . . . . . . . . . . . . . . . 3
II. THIS CASE PRESENTS A STRAIGHTFORWARD
LEGAL ISSUE THAT IS PROPERLY BEFORE
THIS COURT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

ii
TABLE OF AUTHORITIES
CASES
Citizens United v. Fed. Election Comm’n,
558 U.S. 310 (2010). . . . . . . . . . . . . . . . . . . . . . . . 8
Delaware v. Van Arsdall,
475 U.S. 673 (1986). . . . . . . . . . . . . . . . . . . . . . . . 1
Early v. Packer,
537 U.S. 3 (2002). . . . . . . . . . . . . . . . . . . . . . . . . . 3
Johnson v. Williams,
568 U.S. 289 (2013). . . . . . . . . . . . . . . . . . . . . . . . 3
Lebron v. Nat’l R.R. Passenger Corp.,
513 U.S. 374 (1995). . . . . . . . . . . . . . . . . . . . . . . . 7
Miller v. State,
779 P.2d 87 (1989). . . . . . . . . . . . . . . . . . . . . . . . . 9
Nevada v. Jackson,
569 U.S. 505 (2013). . . . . . . . . . . . . . . . . . . passim
Olden v. Kentucky,
488 U.S. 227 (1988). . . . . . . . . . . . . . . . . . . . . . . . 1
Tavares v. State,
30 P.3d 1128 (Nev. 2001) . . . . . . . . . . . . . . . . . . . 9
Washington v. Texas,
388 U.S. 14 (1967). . . . . . . . . . . . . . . . . . . . . . . . . 9
Wellons v. Hall,
558 U.S. 220 (2010). . . . . . . . . . . . . . . . . . . . . . . . 3

iii
STATUTES
Nev. Rev. Stat. 48.035 . . . . . . . . . . . . . . . . . . . . . . . . 8
Nev. Rev. Stat. 48.045(2) . . . . . . . . . . . . . . . . . . . . 8, 9
Nev. Rev. Stat. 50.085(3) . . . . . . . . . . . . . . . . . . . . 8, 9
RULES
Fed. R. Evid. 403 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Sup. Ct. R. 10(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

1
INTRODUCTION
Respondent Jeff Rose’s opposition to the petition for
writ of certiorari attempts to do exactly what Rose
wanted to do at his second trial: focus on collateral
matters in an attempt to create unnecessary confusion
for the decision makers in the case. The central theme
of Rose’s opposition is an accusation that Petitioners
have tried to “reframe” the issue in this case. But if
anyone reframed the issue, it was the Ninth Circuit.
The lynchpin of the Ninth Circuit’s decision is its focus
on the suggestion that the trial court’s ruling
improperly curtailed Rose’s ability to cross-examine
C.C. and A.C and that the trial court could have cured
the problem by issuing some undefined “narrower
ruling.”
This is not, as the Ninth Circuit suggested, a case
about limitations on cross-examination.1 Rose’s Brief
in Opposition proves this point. Rose makes no effort
to defend the Ninth Circuit’s view that the trial court’s
ruling affected his desired cross-examination of C.C.
and A.C. Instead, his opposition emphasizes that his
claim has always been that the trial court’s ruling
prevented him from presenting evidence about

1

Even assuming, arguendo, that the Ninth Circuit was right to
focus on Rose’s cross-examination of C.C. and A.C., the Ninth
Circuit’s analysis still fails to adhere to AEDPA by not evaluating
the reasonableness of the Nevada Supreme Court’s decision in
light of the long-standing recognition that the right to crossexamination is not absolute and subject to reasonable limitations.
Compare Olden v. Kentucky, 488 U.S. 227, 232 (1988), Delaware v.
Van Arsdall, 475 U.S. 673, 678-79 (1986).

2
uncharged acts and prior acquittals through other
witnesses to impeach C.C. and A.C.
As a result, Rose’s opposition only emphasizes the
thrust of the petition: this is a case about a state court
applying a standard rule of evidence—a rule that exists
in virtually every jurisdiction in the country, which
Rose does not dispute—to exclude extrinsic evidence
that the Ninth Circuit agrees had the potential to
confuse and mislead a jury. In Nevada v. Jackson, this
Court recognized that “[n]o decision of this Court
clearly establishes that the exclusion of such evidence
for such reasons” violates a defendant’s right to present
a defense. 569 U.S. 505, 511 (2013). It necessarily
follows that the Nevada Supreme Court’s decision that
the trial court did not violate Rose’s right to present a
defense was a reasonable application of this Court’s
precedent. In reaching a contrary conclusion, the
Ninth Circuit not only disregarded Jackson’s holding,
it turned that holding on its head: rather than
evaluating the reasonableness of the Nevada Supreme
Court’s ruling under this Court’s precedents addressing
the right to present a defense, it substituted its own
judgment for the state courts’ by suggesting the trial
court could have issued an undefined “narrower
ruling.”
This case presents the straightforward question of
whether the Ninth Circuit’s decision is inconsistent
with Jackson. It is. This Court should grant the
petition.
***

3
I. THE NINTH CIRCUIT’S DECISION CONFLICTS
WITH JACKSON
Rose invokes Justice Scalia’s dissenting opinion
from Wellons v. Hall, 558 U.S. 220 (2010), to suggest
that Petitioners merely seek correction of an
“‘inconsequential imperfection of opinion.’”2 Opp. at 18.
Rose’s argument rings hollow. The question presented
expressly states that Petitioners seek review of the
Ninth Circuit’s resolution of an important question of
federal law that is in conflict with an opinion of this
Court. See Sup. Ct. R. 10(c).
As explained in the petition for writ of certiorari,
the straightforward facts of this case are materially
indistinguishable from those in Jackson. In Jackson,
the defendant claimed that the trial court violated his
right to present a defense by precluding him from
impeaching a victim with police reports and testimony
of other witnesses showing that she had made
unfounded allegations against him in the past. 569
U.S. at 507. Consistent with a state rule of evidence,
the trial court allowed Jackson to cross-examine the
victim about the prior allegations, but precluded him

2

Meanwhile, Rose takes aim at the Nevada Supreme Court for
resolving the straightforward evidentiary question at issue in this
case in a footnote that cites an opinion of this court but resolves his
claim “solely by reference to state law.” Opp. at 22-23, 28. But
this Court is not in the business of telling state courts how to draft
their opinions. See Johnson v. Williams, 568 U.S. 289, 300 (2013).
And state courts do not need to cite, or even be aware of, this
Court’s precedents to avoid issuing a decision that is contrary to
clearly established federal law. Early v. Packer, 537 U.S. 3, 8
(2002).

4
from introducing police reports or testimony from other
witnesses to impeach her. Id.
On federal habeas review, this Court concluded that
the trial court’s refusal to admit the evidence based on
the state evidentiary rule was not inconsistent with
this Court’s clearly established precedents. Jackson,
569 U.S. at 509. This Court recognized that such
evidence can “confuse the jury, unfairly embarrass the
victim, surprise the prosecution, and unduly prolong
the trial,” and “[n]o decision of this Court clearly
establishes that the exclusion of such evidence for such
reasons in a particular case violates the Constitution.”
Id. at 511.
Similarly here, the trial court prevented Rose from
presenting extrinsic evidence he claimed would
impeach the victims based on a state evidentiary rule,
finding the evidence Rose sought to admit was more
prejudicial than probative because of its potential to
confuse the jury. Under AEDPA, the Ninth Circuit was
required to deny Rose’s petition because no clearly
established precedent requires the trial court to admit
the evidence, as Jackson expressly held.
Instead, the Ninth Circuit distinguished Jackson by
suggesting that, unlike in Jackson, the trial court
refused to let Rose cross-examine A.C. and C.C. about
whether their allegations were influenced by other
girls. But no party in this case, including the trial
court, ever disputed that Rose had a right to present
his defense that A.C. and C.C. created their stories
after being influenced by other girls, or to cross-

5
examine A.C. and C.C. on these points.3 The trial court
merely held that Rose had to present this defense
without mentioning any other girls’ allegations, and
more importantly, without presenting evidence that a
jury previously acquitted him of other allegations of
abuse.
The record does not include an express ruling
limiting Rose’s ability to cross-examine A.C. and C.C.
because cross-examination of A.C. and C.C. was not the
intended focus of Rose’s defense. Rose’s plan was
always to present the jury with extrinsic evidence
involving a jury acquitting him on the charges relating
to D.A. and Z.V., which Rose would then use to
undermine the allegations from A.C. and C.C. EOR
1565. He also wanted to present extrinsic evidence, in
the form of testimony from D.A. and Z.V. to impeach
A.C. and C.C. EOR 1552-58. Finally, he wanted to
bring in even more young girls—C.R., K.T., and R.S—to
testify that he never touched them and that A.C.’s was
lying if she said otherwise. EOR 1582.
Rose’s request to admit extrinsic evidence to attack
the credibility of A.C. and C.C., and the trial court’s
decision to deny that request because it was confusing
and prejudicial, brings this case squarely under
Jackson. Just as the trial court in Jackson was
entitled to prevent Jackson from presenting extrinsic
evidence bearing on the victim’s credibility without

3

The State admitted that Rose could cross-examine A.C. and C.C.
on whether they made-up their story after talking to the other girls
so long as he did not get into the identities of the other victims or
any prior acquittals. EOR 1569-70, 79-80.

6
violating his right to present a defense, the trial court
in this case was free to similarly limit Rose’s
presentation of evidence. The Ninth Circuit’s contrary
decision amounts to a clear violation of AEDPA.
II. THIS CASE PRESENTS A STRAIGHTFORWARD
LEGAL ISSUE THAT IS PROPERLY BEFORE
THIS COURT.
Rose argues that this Court should not grant
certiorari for two main reasons: (1) that Petitioners’
position has shifted throughout the case; and (2) that
Nevada’s relevant evidentiary law is arbitrary. Both
are unconvincing.
He first asserts that Petitioners have taken
inconsistent positions throughout the proceedings and
raise the argument made in the petition for the first
time in this Court. Opp. at 22-24. This assertion is
without support and an impractical.
Petitioners’ core arguments have remained the
same throughout this litigation. The answer in the
district court argued that the trial court found Rose’s
evidence ran the risk of unfair prejudice, confusing the
issues, and misleading the jury; noted that the trial
court applied the ruling equally to both sides; and cited
Jackson for the proposition that states have broad
latitude in establishing rules of evidence without
violating the right to present a defense. EOR 3533-34.
In the post-argument brief, Petitioners argued that
Jackson foreclosed relief because the Nevada courts
reasonably excluded the evidence to avoid the potential
to confuse and mislead the jury. Dkt. 36 at 15-24.
That is the same argument made in the petition.

7
Rose’s argument also lacks practical sense. Even if
there were differences between the precise arguments
made here and those made below, that is a practical
reality of how our judicial system operates. Petitioners’
briefing in the lower courts was a response to Rose’s
arguments about his claim for relief. But the petition
challenges the rationale of a Ninth Circuit decision
reversing the district court that did not exist when
Petitioners briefed the issue on appeal. Petitioners are
not clairvoyant and cannot be expected to make an
argument in their appellate briefing that challenges
the rationale of a court of appeals decision that does
not yet exist.
This case is demonstrative of that point. Rather
than focusing on Rose’s argument about whether he
should have been permitted to present evidence of
other uncharged acts and prior acquittals through
other witnesses to impeach C.C. and A.C., the Ninth
Circuit focused on how the trial court’s ruling impacted
“the scope of Rose’s cross-examination of A.C. and C.C.”
App at 5-6. But Rose acknowledges Petitioners then
raised the very same argument they raise now in their
petition for rehearing. Opp. at 20. Thus, while Rose
suggests Petitioners’ arguments have shifted, the
actual shift is traceable to the Ninth Circuit’s rationale
for granting relief, which differs from Rose’s arguments
about the merits of his claim. And because the Ninth
Circuit squarely addressed the issue presented in the
petition, it is ripe for this Court’s review. See Lebron v.
Nat’l R.R. Passenger Corp., 513 U.S. 374, 379 (1995)
(“even if this were a claim not raised by petitioner
below, we would ordinarily feel free to address it, since
it was addressed by the court below”) (emphasis in

8
original); see also Citizens United v. Fed. Election
Comm’n, 558 U.S. 310, 330 (2010) (“‘Our practice
permits review of an issue not pressed below so long as
it has been passed upon’” by lower courts.) (citations
and brackets omitted).
Rose next argues that this case falls into one of the
exceptions specifically noted in Jackson, where this
Court noted that it had found that the exclusion of
evidence under state law violated a defendant’s right to
present a defense because the law was arbitrary. 569
U.S. at 509.
He insists that the trial court’s
evidentiary ruling amounted to an “arbitrary double
standard” because state law would allow the State to
present the excluded evidence under Nev. Rev. Stat.
48.045(2).
Rose’s argument misses the mark and reveals
confusion about admissibility of evidence generally and
the trial court’s discretion to exclude otherwise
admissible evidence if the likelihood of prejudice
outweighs probative value under Nev. Rev. Stat.
48.035—the Nevada equivalent to Fed. R. Evid. 403.
First and foremost, the trial court in this case did
not simply bar Rose’s evidence because it was extrinsic
evidence under Nev. Rev. Stat. 50.085(3). Instead, the
trial court initially determined that the evidence was
marginally relevant but excluded it because of the
danger of confusing the issues and misleading the jury
under Nev. Rev. Stat. 48.035. EOR 1582. And the trial
court was unequivocal in recognizing that both the
defense and the State were precluded from presenting
evidence of the allegations of abuse involving other

9
girls. EOR 1582. Thus, in application to Rose’s case,
there is no imbalance.
But Rose’s argument about Nevada law under
Washington v. Texas, 388 U.S. 14 (1967), is also offbase. He argues that exclusion of extrinsic evidence
with respect to the prior allegations of abuse is
arbitrary in general because the evidence can be
excluded under 50.085(3), while the State is able to
present uncharged acts under Nev. Rev. Stat.
48.045(2). But as Respondents noted in briefing this
issue below, Rose’s argument fails to account for
Nevada’s exception to its exclusion of extrinsic evidence
for a victim’s prior false allegations of sexual abuse.
Dkt. 36 at 21-23 (addressing Miller v. State, 779 P.2d
87 (1989) (creating an exception to Nevada’s
prohibition against impeachment with extrinsic
evidence to allow defendant to establish that a victim
made prior false accusations of sexual assault)). While
the State may present evidence of uncharged acts, it
must meet a strict test to permit presentation of such
evidence. Tavares v. State, 30 P.3d 1128, 1131-32 (Nev.
2001) (addressing Nevada evidentiary standards for
use of prior bad act evidence at trial and imposing a
duty on the prosecutor to request an instruction “on the
limited use of prior bad act evidence”). And a victim’s
prior false allegations of sexual abuse may be admitted
if the defendant makes a showing comparable to the
test for admitting prior uncharged acts. Miller, 779
P.2d at 90. As a result, Rose’s argument that Nevada
law arbitrarily prevents defendants from preventing
prior allegations of abuse that are false, while allowing
the State to present uncharged allegations of abuse, is
not supported by relevant Nevada law.

10
***
The Ninth Circuit concluded that the trial court was
constitutionally required to let Rose present evidence
it admits could have confused the jury. Jackson
requires the opposite conclusion.
CONCLUSION
This Court should grant the petition.
Respectfully submitted,
AARON D. FORD
Attorney General of Nevada
HEIDI PARRY STERN*
Solicitor General
JEFFREY M. CONNER
Deputy Solicitor General
CHARLES FINLAYSON
Senior Deputy Attorney General
100 North Carson Street
Carson City, NV 89701
(775) 684-1100
HStern@ag.nv.gov
* Counsel of Record
Counsel for Petitioners
July 2020

